                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 113060040                                                                       Page 1 of 1




         We initiated an investigation of an NSF awardee 1 for potential civil/criminal violations, including
         filing false claims with NSF. Based on a review of documents and an interview with NSF staff, we
         determined there was no violation of civil or criminal statutes. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
